HHS/OIG, Audit - "Medicare 2002 Financial Statement Activity at Mutual of Omaha," (A-07-02-04002)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Medicare 2002 Financial Statement Activity at Mutual of Omaha,"
(A-07-02-04002)
October 7, 2002
Complete Text of Report is available in PDF format
(424 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
The objectives of this audit were to determine whether Medicare fee-for-service
claims were: furnished by certified Medicare providers to eligible beneficiaries;
reimbursed by Medicare contractors in accordance with Medicare laws and regulations;
and medically necessary, accurately coded, and sufficiently documented in the
beneficiaries medical records.  The period of this audit was the quarter
of January 2002 through March 2002.  Our review of 151 claims totaling
$530,367 of Medicare payments disclosed that 25 claims did not comply with Medicare
laws and regulations.  The 25 claims had 133 line errors representing $12,070
in improper payments and one underpayment of $7,016.  All of these improper
payments were detected by medical reviews coordinated by the Office of Inspector
General.